                OFFICE OF
                INSPECTOR GENERAL
                U.S.DEPARTMENT OF THE INTERIOR




INSPECTOR GENERAL'S STATEMENT
SUMMARIZING THE MAJOR MANAGEMENT
AND PERFORMANCE CHALLENGES FACING
THE U.S. DEPARTMENT OF THE INTERIOR




Report No.: ER-SP-MOI -0002-20 12                October 20 12
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR



                                                                                OCT 15 2012
Memorandum

To:            Secretary Salazar

From:          Mary L. Kendall
               Deputy Inspector General

Subject:       Inspector General's Statement Summarizing the Major Management and
               Performance Challenges Facing the U.S. Department of the Interior
               Assignment No. ER-SP-MOI-0002-2012

        In accordance with the Reports Consolidation Act of2000, we are submitting what we
determined are the most significant management and performance challenges facing the U.S.
Department of the Interior (DOl). The challenges listed are for inclusion in DOl's "Agency
Financial Report" for fiscal year 2012. These challenges reflect those that the Office of Inspector
General (OIG) considers significant to departmental efforts to promote economy, efficiency, and
effectiveness in its bureaus' management and operations.

        We identified the top management and performance challenges as-

        •   energy management;
        •   climate change;
        •   water programs;
        •   responsibility to Indians and Insular Areas;
        •   Cabell and Indian land consolidation; and
        •   operational efficiencies.

        We met with DOl officials to gain their perspective and together agreed on the challenge
areas. These areas are important to DOl's mission, involve large expenditures, require
continuous management improvements, or involve significant fiduciary relationships. We
believe DOl would benefit by developing strategies to identify and address challenges in these
areas, especially in those that span bureau and program lines.




                                Office of Inspector General I W ashington, DC
Office of Inspector General Update Regarding the
Top Management Challenges for the U.S.
Department of the Interior
Energy Management
The U.S. Department of the Interior (DOI) has jurisdiction over 1.76 billion acres
of the Outer Continental Shelf (OCS), manages about one-fifth of the land area of
the United States, and manages 700 million acres of subsurface minerals
throughout the Nation. DOI lands and waters generate almost one-third of the
Nation’s domestic energy production, resulting in royalties of approximately
$11.2 billion in fiscal year (FY) 2011 and $9.5 billion in FY 2010.

In an effort to manage this responsibility more effectively, DOI is undergoing
major changes in the area of energy management, including the transition of the
Bureau of Ocean Energy Management, Regulation and Enforcement (BOEMRE)
into the Bureau of Ocean Energy Management (BOEM), managing development
of OCS resources; the Bureau of Safety and Environmental Enforcement (BSEE),
overseeing safety and environmental compliance; and the Office of Natural
Resources Revenue (ONRR), managing the revenue collection function. In
addition, the Bureau of Land Management (BLM) is expanding its wind and solar
projects. Based on the number of wind-testing projects and wind and solar
applications, wind projects may quadruple and solar projects may increase tenfold
in the near future.

Offshore Drilling
DOI continues to face challenges with the management of domestically produced
offshore oil and gas. To achieve higher levels of oil production in the Gulf of
Mexico, the Gulf offshore oil and gas industry has extended farther offshore and
deeper undersea. As the drilling environment becomes more complex, it exerts
greater demands on equipment and pipelines. As a result, DOI oversight of the
Gulf energy resources is more challenging, but some improvements have been
made over the last year. BSEE has plans to stay focused on the recruitment,
training, retention, and succession planning for crucial job series such as
inspectors and engineers, as well as purchasing an improved infrared camera
system to allow for additional field inspections and improved data collection.

According to a recent U.S. Government Accountability Office (GAO) audit, DOI
has strengthened its oversight of the oil and gas industry’s ability to respond to a
subsea well blowout, and the industry has responded by improving well-
containment capabilities and creating dedicated well-containment organizations.
DOI is developing and documenting oversight processes, and, in some cases, has
established timeframes for their completion. DOI has also conducted two
unannounced spill drills that have included a subsea well-containment scenario
and stated that it will incorporate this scenario into future spill drills. GAO noted,
however, that DOI has not established a timeframe for incorporating a subsea

                                                                                     2
well-containment scenario into spill drills, and until it does so, there is limited
assurance that operators drilling in the Gulf of Mexico or other areas will be
prepared to respond effectively to a subsea well blowout.

Renewable Energy
Secretary Salazar established the production, development, and delivery of
renewable energy as one of DOI’s highest priorities by signing Secretarial Order
3285, “Renewable Energy Development by the Department of the Interior,” on
March 11, 2009. The order describes the need for strategic planning and a
thoughtful, balanced approach to domestic resource development. It also noted
DOI’s role in coordinating and ensuring environmentally responsible renewable
energy production and development.

Financial accountability and resource protection are integral to the renewable
energy program. These include obligations to protect the Government’s financial
interests by timely and accurately collecting rental revenues and managing the
bonding process, and to protect the country’s natural resources by monitoring and
enforcing grant requirements. Wind and solar projects can cover thousands of
acres and therefore have the potential for biological, cultural, historical,
paleontological, archaeological, and visual resource degradation.

BLM has taken aggressive action to increase its capacity to process renewable
energy grants for rights-of-way (ROWs). One of our recent reviews revealed
BLM had 29 of 31 authorized wind projects in operation and 5 of 9 authorized
solar projects under construction. BLM’s focus on increasing the number of
renewable energy projects, however, has exposed some weaknesses in its
management of these projects.

In June 2012, we reviewed BLM’s renewable energy activities to assess the
effectiveness of BLM’s development and management of its renewable energy
program. We found that BLM has opportunities to improve in developing and
implementing renewable energy policies. For example, BLM issued guidance on
wind-rental payments and wind-bonding requirements, but it did not establish a
process to ensure timely implementation of the guidance, which resulted in a loss
of $1.2 million in rental revenues on 22 wind projects from 2009 through 2011
and insufficient bonding by $8.5 million on 14 wind projects. In addition, BLM
has not developed and implemented Bureauwide guidance on monitoring and
inspecting wind and solar projects or for enforcing compliance with ROW
requirements. We also found that BLM could potentially generate millions of
dollars in additional revenues if it used a competitive bidding process.

We made nine recommendations to improve the long-term management of BLM’s
renewable energy program. Our recommendations represent opportunities for
BLM to accurately collect rental revenues, manage the bonding process, monitor
and ensure compliance with ROW requirements, and generate additional revenues
by using a competitive bidding process for wind and solar ROWs.

                                                                                      3
Leasing Activities on Federal Lands
Office of Natural Resources Revenue
In January 2012, we evaluated ONRR’s process for obtaining timely compliance
from lessees and operators that violate lease terms, regulations, or Federal law
during the leasing and production of energy and mineral resources on Federal and
Indian lands. ONRR manages billions of dollars in royalties and other revenues
due the Government from offshore and onshore mineral leasing activities.
ONRR’s Office of Enforcement ensures that companies comply with ONRR
regulations and orders and assesses civil penalties when a person or company fails
to correct violations cited in a Notice of Noncompliance by the established
deadline. A penalty can be assessed of up to $500 per violation per day starting 20
days after a Notice of Noncompliance is received. A knowing or willful violation
can carry an immediate penalty of up to $25,000 per violation per day.

We found that the Office of Enforcement obtained compliance with laws and
regulations and negotiated reasonable settlements when companies disputed the
royalty amounts. ONRR, however, has opportunities to improve its timeliness and
efficiency in gaining compliance. For instance, ONRR did not always timely issue
Notices of Noncompliance or assess civil penalties as established in its
regulations. ONRR also allowed extensions for companies to achieve compliance
instead of assessing civil penalties within authorized timeframes. In some cases, it
took more than 1 year to obtain a company’s compliance. In addition, ONRR did
not prepare risk assessment summaries as required by its policies or fully justify
and document the assessed civil penalties in its case files.

Improvements are also needed to ensure the Government’s financial interests are
protected during processing and management of settlements and appeals. We
determined the Government lost approximately $586,000 in interest when
processing five settlement agreements. We issued seven recommendations to
improve the efficiency of ONRR’s enforcement process through focused
management and coordination among ONRR divisions during the Notice of
Noncompliance process, strengthen procedures to ensure that Notices of
Noncompliance are issued promptly and civil penalties are assessed and increased
when compliance is not timely, and improve guidance to fully document civil
penalty assessments and negotiated settlements that would reduce the risk of lost
interest during the settlement and appeal process.

In November 2011, ONRR requested a meeting with us to discuss how to comply
with the civil penalty sharing provision of 30 U.S.C. §1736. This provision
applies to ONRR’s agreements to have States and tribes conduct royalty audits of
Federal and Indian oil and gas lessees within their jurisdictions. It calls for ONRR
to provide States and tribes 50 percent of any civil penalties that result from this
audit work and to reduce by a corresponding amount the funding that ONRR
gives the States or tribes to conduct the royalty audits.




                                                                                   4
Despite this requirement, State and tribal audit organizations have asked ONRR
not to share the penalty money with their respective State or tribe because of their
concerns that doing so would result in the elimination of the funding for their
audit work. ONRR now owes State and tribal governments a total of $441,000 in
penalties dating back to May 2006.

We support ONRR’s efforts to comply with § 1736 and understand its concerns
about the impact a reduction in obligated funds could have on State and tribal
audit programs. We made three recommendations to DOI to help ONRR address
these concerns while correctly and effectively implementing the penalty sharing
requirement of § 1736.

Bureau of Indian Affairs
The Bureau of Indian Affairs (BIA) reviews and approves oil and gas and other
mineral leases on Indian lands, which represent billions of dollars in overall
annual economic benefits significant to Indian Country. The Bureau, however,
does this without a formal program backed by consistent administrative guidance
and protocols. Our September 2012 review found opportunities for BIA to
improve its oversight of oil and gas leases on Indian lands.

Insufficient guidance and oversight of oil and gas leases by DOI agencies have
frustrated tribal officials and members, BIA employees, and the energy industry
in Indian Country. In addition, Federal attempts to support tribal sovereignty
through the use of tribal energy resource agreements under the Energy Policy Act
of 2005 have been hampered by complex regulations, insufficient funding, and
tribal concerns about assuming increased responsibility. Outdated and unofficial
BIA guidance documents also increase the likelihood for inconsistent and
ineffective decisions at the local level.

These problems contribute to a general preference by the industry to acquire oil
and gas leases on non-Indian lands. As a result, oil and gas leasing in Indian
Country is not achieving its full economic potential, and frustration with leasing
inefficiencies has led Indian landowners to take legal action against BIA.

Although some issues with oil and gas leases on Indian lands do not have an easy
solution, many opportunities exist for DOI to improve conditions for leasing. BIA
personnel with oil and gas responsibilities comprise a dedicated workforce
committed to advancing leases on Indian lands. We did find, however, that these
same employees often do not have the necessary resources to provide efficient
assistance.

We identified a need for focused, coordinated program management of Indian oil
and gas development. As Indian oil and gas leases have doubled to almost 21,000
in the last 5 years, BIA continues to approve leases without formal policies and
procedures to ensure consistency and transparency. BIA also inconsistently


                                                                                     5
applies National Environmental Policy Act requirements and has no long-term
planning process.

We made nine recommendations to strengthen BIA’s management of Indian oil
and gas development and help DOI fulfill the intent of the Energy Policy Act of
2005.

Government Accountability Office’s 2011 High-Risk List
DOI remains on GAO’s 2011 High-Risk List for management of oil and gas on
leased Federal lands and waters. In response to GAO’s recommendations, DOI
stated it has taken steps to improve consistent and timely updating of
measurement regulations and policies, clarify jurisdictional authority over gas
plants and pipelines, and provide appropriate and timely training for key
measurement staff. BSEE developed DOI-wide guidance on measurement
technologies and made a determination on DOI’s authority over pipelines. BSEE
also determined training needs for offshore staff to effectively carry out their
inspection responsibilities and is making steady progress on recommendations
concerning access to production data, implementation of mobile computing
solutions, and clarification of guidance on standardized measurement methods
and comingling.

GAO also recommended that DOI improve its venting and flaring data—
information used to report the loss of natural gas during drilling operations—and
address limitations in its regulations and guidance to reduce lost gas and
greenhouse gas emissions and increase royalties. The recommendations suggest
that DOI better use the Oil and Gas Operating Report and the Gulf-wide Offshore
Activities Data Systems (GOADS) as well as venting and flaring technologies to
more accurately assess opportunities to track and measure lost gas. DOI expects
to fully implement these recommendations by 2015.

According to DOI, actions are currently underway to begin addressing these
recommendations:

   •       BOEM has identified and reported to BSEE that 26 operators have not
           complied (in part or in total) with GOADS and 286 facilities have not
           submitted the requisite emissions data. In response, BSEE recently
           issued Incidents of Noncompliance warnings to each of the 26
           operators, requiring submission of the data within an established
           timeframe (2 to 4 weeks) to avoid additional enforcement actions.
           BSEE and BOEM will then establish necessary querying and reporting
           tools to pull the Oil and Gas Operating Report information from the
           Technical Information Management System and identify the
           differences between the GOADS and Oil and Gas Operating Report
           data.
   •       In response to GAO’s recommendation to consider the expanded use
           of infrared cameras where economical to improve reporting of

                                                                                   6
           emission sources and to identify opportunities to minimize lost gas,
           BOEMRE implemented an infrared camera pilot program in March
           2011 that is now overseen by BSEE in the Gulf of Mexico OCS
           Region. To date, BSEE has conducted 20 field inspections using its
           infrared camera system to collect relevant offshore production data.
           BSEE will be evaluating this data to identify areas where infrared
           detection technology or other work practices can be implemented to
           minimize lost gas and impacts on air quality. BSEE is in the process of
           purchasing an improved infrared camera system to allow for additional
           field inspections and improved data collection. With the new camera
           system in place, the pilot program may be expanded to capture data on
           a sample set of Pacific OCS Region structures as well as continued
           work in the Gulf of Mexico OCS Region.

DOI also stated that it has closed eight GAO high-risk recommendations related
to the accuracy of company-reported data including 1) actions requiring
companies to report additional data, 2) enhancements to ONRR’s Web-based
reporting system that prohibits company-reported errors, and 3) implementation
of data mining processes enabling ONRR to monitor companies’ adjustments to
previously reported royalties and compare reported royalty and production
volumes. Implementation of data mining processes has resulted in additional
collections of approximately $16 million through April 2012.

In response to the challenge of recruiting professionals to monitor DOI’s energy
functions, DOI officials stated that BOEM and BSEE have taken significant steps
to ensure that they stay focused on the recruitment, training, retention, and
succession planning for crucial job series such as inspectors and engineers. The
funds provided to both BOEM and BSEE in FYs 2011 and 2012, and requested
for FY 2013, are a crucial investment in new inspectors and engineers. Special
salary rates for petroleum engineers, geologists, and geophysicists in the Gulf of
Mexico Region authorized by the FY 2012 Consolidated Appropriations Act have
been supportive in recruiting and retaining highly qualified individuals to fill
these essential positions. BOEM and BSEE have implemented special salary-rate
authority as of April 22, 2012. In addition, the bureaus have jointly contracted
with an outside firm to analyze methods for recruiting, design materials in various
media to promote employment, and support current recruitment activities such as
career fairs and departmental visits. The BOEM and BSEE Web sites have
updated employment opportunities pages designed to attract potential applicants.
BOEM is participating in a pilot program to implement DOI’s “Strategic
Workforce Management Plan,” which engages the Bureau in detailed workforce
planning using a standardized model.

As of June 30, 2012, over 100 positions needed to be filled to fully support
BSEE’s safety and environmental enforcement functions. These positions will
allow permitting engineers and inspectors to effectively evaluate and keep pace
with the risks of offshore drilling and to promote the development of safety

                                                                                  7
cultures in offshore operators. Special salary rates will enhance the Government’s
competitiveness with private industry. As of March 31, 2012, BSEE had added 45
new inspector positions since the Deepwater Horizon incident. There has been a
total increase of 13 engineers at BOEM and BSEE in the same timeframe.

Climate Change
The sheer scope of climate change, combined with the difficulty of identifying
region-specific impacts and the need to develop response strategies, has continued
to pose significant management challenges to DOI. The lands and resources
managed by DOI face increasingly complex and widespread environmental
challenges associated with climate change, such as destruction from invasive
species, like the pine bark beetle; coastal erosion; and species moving into
habitats they never previously inhabited. Some communities face increasing
issues with water availability and drought due to climate-related changes in
hydrology patterns, which affect farming and other land uses, while other urban
and rural areas face issues with flooding.

DOI continues to face the challenge of developing relevant scientific information
for land, water, and wildlife managers on a regional basis. DOI also must work
across landscapes and watersheds with other Federal agencies, States, local and
tribal governments, and private partners to formulate shared understandings and
common strategies for land and resource managers to adapt to the challenges and
ensure the resilience of our Nation’s resources.

DOI’s FY 2012 enacted budget for climate change was $146 million, and the FY
2013 requested budget is approximately $165 million. Money will be spent to
support the completion of a network of Landscape Conservation Cooperatives and
Climate Science Centers, as well as support individual bureau adaptation
activities. DOI’s priority goal for FYs 2012 and 2013 is to identify resources that
are vulnerable to climate change and implement coordinated adaptation strategies
to mitigate risks of changing climate for 50 percent of the Nation by September
30, 2013. DOI stated it has prepared a high-level vulnerability analysis that
outlines how its mission-related activities might be affected and at risk from
climate change and is currently drafting a climate change adaptation plan for FY
2013.

We are currently auditing select Landscape Conservation Cooperatives to look
more closely at DOI’s climate change initiative. The audit concentrates on the
adherence to and appropriate application of internal controls for the grants and
cooperative agreements issued through DOI’s initiative and focuses on 6 of the 22
Cooperatives (27 percent), ranging from those in the early stages of development
to the most mature.

In addition, in August 2011, we completed an evaluation that assessed the
National Park Service’s (NPS) Climate Friendly Parks Initiative (CFP)—
established to provide resources and support for parks to measure and reduce

                                                                                    8
greenhouse gas emissions, plan ways to adapt to a changing climate, and educate
the public about climate change—to determine whether CFP-member parks
benefit from participation and whether this initiative helps NPS meet Federal
environmental sustainability goals. We found that the initiative has created an
environment of climate stewardship among member parks, although deficiencies
in accountability and other areas may make it difficult to match CFP
accomplishments to the requirements mandated by Executive Order 13514.

We found that accountability for following the initiative ends once a park
develops an action plan and becomes a CFP-member park. NPS has no standard
mechanism to measure, track, and report a park’s progress and outcome or
analyze which actions have been most beneficial.

Moreover, we found that the current greenhouse gas inventory tool used to
identify activities that produce emissions and the amount of each activity’s
emissions does not meet Executive Order requirements. We were concerned that
data quality was at risk due to the manner in which greenhouse gas inventory data
were collected, verified or validated, and updated at CFP-member parks—
potentially reducing accurate reporting information required by the newly issued
Council on Environmental Quality guidance. We also noted that to achieve
sustainability, CFP-member parks should consider the initiative’s potential to
integrate with other environmental programs and develop a clear long-term
integration plan.

We made four recommendations to improve accountability, data quality and
assurance, and sustainability of CFP consistent with a changing Federal
environment and new mandates.

In response to our recommendations, NPS stated it was working on a data
streamlining and consolidation initiative that will improve its ability to track
mitigation actions identified by CFP-member parks from conception through
implementation. NPS also stated it was preparing a greenhouse gas inventory
management plan, which will describe quality assurance, quality control, and
verification procedures for the entire NPS greenhouse gas inventory and updating
its inventory tool to align with Federal greenhouse gas guidance, as well as to
increase its ability to automatically roll data up to the headquarters level.
Furthermore, NPS plans to develop a long-term plan for the CFP initiative that
will take into consideration its potential to integrate with other environmental
programs.

Water Programs
As the largest supplier and manager of water in the 17 western States, DOI
delivers irrigation to 31 million people, 1 out of every 5 western farmers, and 10
million acres of farmland. Some of the challenges associated with this
responsibility include an aging water infrastructure, rapid population growth,
depletion of groundwater resources, impaired water quality associated with

                                                                                     9
particular land uses, and land covers. 1 Water needed for human and environmental
uses, as well as climate variability and change, all play a role in determining the
amount of fresh water available at any given place and time.

Prolonged drought continues to increase water challenges across the Nation,
particularly in the West and Southeast. Drought, in addition to increased demands,
exacerbates the challenges facing traditional water management approaches.

Adding complexity to these challenges is the governance of fresh water, which
involves numerous jurisdictions and a complex array of laws and ownership. DOI
must balance limited water resources between multiple uses, habitat restoration,
and responsibilities under the Endangered Species Act.

Since the start of FY 2010, the Bureau of Reclamation (USBR) has pursued a
priority goal for enabling water conservation. USBR has thus far approved water
conservation projects with a collective capacity of 480,000 acre-feet of water
when completed. According to DOI, USBR has met all of the quarterly milestones
identified for the third quarter of FY 2012, leading to tentative selections of
WaterSMART Water and Energy Efficiency Grant projects, Title XVI projects,
California Bay-Delta Authority projects, and proposals for the Water
Conservation Field Services Program. In addition, on April 16, 2012, funding was
awarded for the first phase of the Yakima River Basin Water Enhancement
Project, completing a second-quarter milestone.

The amount of water conservation that can be reported is heavily dependent on
the projects proposed from year to year. The costs and capacities of projects vary
depending on several factors, such as site conditions and the size and types of
projects and materials required, which results in different amounts of capacity
generated for the same amount of funding.

DOI officials stated that in FY 2012 USBR began funding a small number of
multiyear WaterSMART grant projects in 1-year phases to determine whether
larger, phased projects would result in additional water conservation. USBR has
also started requesting more detailed support for applicants’ water conservation
estimates so that those estimates can be evaluated as effectively as possible. DOI
also stated that USBR increased outreach to stakeholders to improve their
understanding of the opportunities, requirements, and goals of water conservation
programs.

We are currently reviewing DOI’s water programs by evaluating the repayment
status of USBR’s Central Valley Project to determine if the Federal Government
will recover its initial investments in the project by the legally established
deadline of 2030.


1
    Land cover is the physical material at the surface of the earth, such as grass, trees, or asphalt.

                                                                                                         10
Responsibility to Indians and Insular Areas
Indian Affairs
Responsibility to American Indians is consistently a top management challenge
for DOI. DOI works with 566 Federally recognized Indian tribes, has trust
responsibilities for 112 million surface and subsurface acres of land belonging to
Indian tribes and individuals, and provides education services to approximately
41,000 Indian children in 183 schools and dormitories. Some of the Indian
Country programs managed by DOI include Indian Trust for Lands and Funds,
Indian Education, Self-Determination, Energy and Economic Development,
Indian Gaming, and Justice Services.

Recent OIG reviews identified needed improvements in bridge safety programs,
accountability efforts over its contracting program with the National Native
American Law Enforcement Association (NNALEA), and internal controls in the
Office of Trust Fund Investments.

Bridge Safety Programs
In our April 2012 review of the accuracy of data submitted to the Federal
Highway Administration (FHWA) for the National Bridge Inventory, we found
that BIA complied with requirements to submit its data to the FHWA for
inclusion in the Inventory. BIA, however, demonstrated issues with the
completeness and accuracy of the submitted data. Record-keeping errors in BIA’s
current database caused structures not to be scheduled for inspection and thus not
meet the FHWA’s 2-year inspection requirement. We also identified contracting
issues needing resolution for BIA to comply with Federal requirements and to
ensure the validity of its bridge inspections. Compliance with the requirements
provides the greatest assurance that BIA’s bridges are as safe as possible for
public use.

NNALEA Contract
In 2009, we evaluated staffing needs for BIA’s detention facilities. At that time,
we learned that BIA awarded a $1 million contract to NNALEA—a 501 (c)
nonprofit organization—to recruit needed law enforcement officers. Our review
identified deficiencies in both the award process and contract terms. We issued a
management advisory recommending that BIA terminate the contract.

Based on that advisory and advice from the Office of the Solicitor, BIA
terminated the contract on February 25, 2010. At the time of termination, the
contract had been in place for 8 months, and BIA paid NNALEA nearly the entire
contract value of $1 million. We conducted this evaluation to determine if the
Office of Justice Services received the intended benefit.

Our May 2012 evaluation determined that the Office of Justice Services received
no benefit from the award of a recruitment services contract to NNALEA. We
found that BIA awarded a defective contract, disenfranchised potential job
applicants, and wasted nearly $1 million of Federal funds. This occurred because

                                                                                 11
BIA violated the Federal Acquisition Regulation and DOI policy and failed to use
its Office of Human Capital Management to develop required contract terms,
resulting in a poorly written contract—developed in conjunction with
NNALEA—that contained significant contract defects and allowed NNALEA to
take advantage of the Office of Justice Services to produce unusable contract
deliverables.

Office of Trust Fund Investments
In October 2011, at DOI’s request, we evaluated six internal control weaknesses
asserted to exist in the Office of Trust Fund Investments (OTFI), a component of
the Office of Special Trustee for American Indians (OST). The principal deputy
special trustee (PDST) alleged these weaknesses in a draft memorandum titled
“FY 2011 Annual Assurance Statement on Internal Controls.” The PDST’s
assertion that internal controls over OTFI were insufficient was based on two
investment errors that occurred during FY 2011. Although both mistakes were
caught, the PDST qualified the draft assurance statement due to his concerns
about the controls. When we examined the related internal controls, however, we
were unable to validate the PDST’s assertions.

BIA Investigations
Approximately 30 percent of OIG investigations involve Indian Country. In July
2009, we initiated an investigation into allegations of improper disbursements by
Federal and tribal employees of the Fort Peck Credit Program. We determined
that these employees approved and received excessive loans and direct payments
from the Credit Program without authorization or proper documentation. The
investigation revealed that all six employees of the Credit Program routinely
issued to themselves and to their family members disbursements they were not
entitled to receive from Credit Program bank accounts. The employees also
confessed to intentionally altering Credit Program records in September 2007 to
conceal the fraud scheme from a Federal review team.

In January 2010, a Federal grand jury in Billings, MT, issued the first of a series
of criminal indictments alleging a 10-year criminal conspiracy operating between
1999 and 2009 to embezzle more than $1 million from the Credit Program by its
six employees. All six employees pleaded guilty to various felony charges,
including conspiracy and obstruction of justice, and received prison terms ranging
from 24 to 45 months. We expanded our investigation to identify other
individuals who assisted in the fraud scheme. To date, four more people have
been convicted for their roles in stealing tribal funds from the Credit Program.
Overall, 10 people have been convicted for their roles in the fraud scheme. The
U.S. District Court for the District of Montana has ordered prison sentences
totaling 278 months and restitution in the amount of $832,303.

Insular Areas
DOI also has responsibilities to seven Insular Areas, including four territories and
three sovereign island nations. DOI has administrative responsibility for

                                                                                  12
coordinating Federal policy in the territories of American Samoa, the
Commonwealth of the Northern Mariana Islands, Guam, and the U.S. Virgin
Islands. For the three sovereign nations—the Federated States of Micronesia, the
Republic of the Marshall Islands, and the Republic of Palau—DOI administers
and oversees Federal assistance provided under the Compacts of Free
Association. DOI coordinates with the State Department and other Federal
agencies to promote economic development and budgetary self-reliance in these
island territories.

DOI manages its responsibility to the insular areas primarily through the Office of
Insular Affairs (OIA). OIA works to improve the financial management practices
of the Insular Area governments and to increase economic development
opportunities through financial and technical assistance. The FY 2012 budget for
the Insular Areas includes $87.9 million for capital improvements, operation, and
technical assistance to the four U.S. territories; $234.6 million for the programs of
the three nations under the Compacts of Free Association; and $248 million in
tax-related payments to the U.S. Virgin Islands and Guam. OIA annually funds
the Insular Area government programs that focus on education, health care,
infrastructure improvement, public sector capacity building, private sector
development, and the environment.

Infrastructure Upgrades and Service Capacity
The transfer of thousands of U.S. military personnel and their dependents from
Okinawa, Japan to Guam will require significant resources and infrastructure
upgrades to support the increased population and impact to island residents. The
U.S. Department of Defense recently announced that the number of troops to be
relocated will be reduced from 8,500 to about 4,700. The timeline for the
relocation has been pushed back from the planned 2014 target date to an
undetermined date. In addition, Guam needs to prepare for the temporary hosting
of significant numbers of contractor personnel who will work on the infrastructure
upgrades. The uncertainties of the target relocation date and the temporary nature
of hosting the contractor workers present additional challenges to the already
difficult plans to prepare for the increased military population, but they also
present an economic opportunity.

To assist in evaluating the island’s preparation for the military buildup, we
examined two functions that serve the citizens of Guam—Guam Power Authority
(GPA) and Guam public safety. We reviewed GPA’s ability to account properly
for the maintenance and condition of key infrastructure components and assessed
efforts to expand service capacity, increase reliability, assure continuity of service
for critical facilities, prepare for contingencies, and incorporate alternative energy
sources. Prior to the review, GPA issued bonds to fund a variety of generation,
transmission, and distribution improvement projects to address existing concerns
and also identified military-related improvement projects to help increase capacity
and improve reliability. We found, however, that improvements are still needed to
increase reliability, maintain key infrastructure components, and incorporate

                                                                                   13
renewable energy into the system. In addition, uncertainties about the relocation
date and funding sources could place additional strain on GPA and its rate-paying
customers.

We also reviewed the ability of Guam’s Police Department, Fire Department, and
Homeland Security to meet the safety and response needs of Guam’s citizens and
prepare for the increase in population. We found that the police and fire
departments cannot meet current public safety needs and are ill prepared to meet
the even greater needs of a larger population. Both departments must address
shortcomings in staffing, infrastructure, vehicles, maintenance, and training.
While Guam’s Homeland Security is currently 100 percent Federally funded and
meets Guam’s current needs, it is anticipated that Federal funding will decrease,
and unless supplemented by local funding, the level of service will diminish.

Detecting Fraud, Waste, and Mismanagement in the Insular Areas
Our findings in the Insular Area governments have not changed significantly from
previous years. We continue to find that many of the Insular Area governments
lack the resources necessary to adequately prevent and detect fraud, waste, and
mismanagement involving Federally funded programs. The Offices of the Public
Auditor (OPAs) and local OIGs for these governments continue to operate under
insufficient budgets; they therefore have difficulty competing for qualified audit
staff and are often unable to provide required training.

A number of our investigations revealed that weak Insular Area government
procurement systems coupled with the OPAs’ insufficient resources contributed
to the vulnerabilities of procurement fraud. These vulnerabilities were
exacerbated by a number of instances of integrity weakness in local government
personnel. We observed that OIA has increased its oversight of the programs it
supports, but a significant need remains for closer monitoring of these programs.

We continue to expand both the capacity of the OPAs and local OIGs, as well as
their efforts toward strong financial and program accountability in the Insular
Areas. Supported by OIA, we offer a training program to OPAs by offering OPA
staff opportunities to work in our various regional offices for on-the-job training
experience. This training program is designed to provide greater self-sufficiency
and to increase capacity for OPAs, enabling them to monitor the expenditures of
Federal and local funds to the mutual benefit of all parties.

New this year, we expanded our capacity-building initiatives by providing
classroom training to the Republic of the Marshall Islands Office of the Auditor-
General on accounting and auditing. Furthermore, we complemented the
classroom training with technical assistance on an audit being conducted by the
Office of the Auditor-General. We seek to offer this program to other Insular Area
governments and hope that our capacity-building and resource-leveraging efforts
help provide the skills necessary to oversee the financial and program resources
and activities of the Insular Area governments.

                                                                                 14
Insular Area Resources
Recent reviews have also focused on ongoing challenges in the management of
Insular Area resources. We evaluated the U.S. Virgin Islands’ retirement system;
the administrative functions of the U.S. Virgin Islands’ Legislature; and Juan F.
Luis Hospital and Medical Center, the Virgin Islands’ only hospital on the island
of St. Croix.

Our September 2011 evaluation of the Government of the Virgin Islands
Retirement System identified several factors contributing to an unfunded liability
of over $1.4 billion. This liability, which has been growing for years, represents a
gap between the amount of retirees’ future annuities and the projected value of
Retirement System assets.

The contributing factors include employee/employer contribution levels, the ratio
of active to retired members, and early-retirement legislative mandates. As a
result, the long-term sustainability of the Retirement System, which comprises
just over 18,000 members, is critically at risk. At the time of our review, the most
recent actuarial Retirement System evaluation, completed in 2006, projected the
default of the Retirement System in just 14 to 19 years and a corresponding
cessation of benefits payments.

We also found that the Retirement System does not always maintain accurate
member information, which could lead to employees retiring earlier or later than
authorized. The Retirement System could also find itself paying incorrect
annuities.

We offered four recommendations, and although the Governor of the Virgin
Islands responded to our concerns with equal awareness of the situation and an
apparent plan to rectify it, the severity of the situation is such that we are seeking
additional support from OIA to monitor actions taken in response to our
recommendations.

In addition, our November 2011 joint audit (with the Office of the Virgin Islands
Inspector General) of the administrative functions of the Virgin Islands’
Legislature (Legislature), we found that the Legislature is not using sound
business practices in its stewardship of public funds and resources, resulting in
fraud, waste, and mismanagement. The audit identified several weaknesses that
led to improper use of allotted funds for such things as cash advances, employee
bonuses, procurement of goods and services, and security of sensitive equipment.

We identified many highly questionable practices and deficiencies during the
audit, resulting from an absence of formal policy and procedures as well as weak
internal controls. The unregulated administration of public funds has led to a
culture with almost no accountability or transparency.


                                                                                    15
Finally, our September 2012 evaluation of the Juan F. Luis Hospital and Medical
Center revealed that the hospital’s historical financial management issues have
reached a critical juncture. Significant changes need to occur if the hospital is to
continue to operate for the benefit of Virgin Island citizens and visitors. The
hospital needs to make some immediate decisions regarding how best to balance
its debt load with its revenue streams to preserve its future as St. Croix’s source of
health care.

OIA Economic and Financial Data
OIA is working to integrate territorial gross domestic products (GDPs) into the
National GDP accounts and assist the territories in upgrading their capacities to
collect, analyze, and disseminate economic and financial data. According to DOI,
OIA engaged the Bureau of Economic Analysis, the Federal agency that produces
GDP data for the United States, to produce GDP statistics for the territories in the
same manner it does for the United States. Tracking GDP data also enables policy
makers at all levels of government to look at the economic situations of the
territories objectively and take appropriate actions. OIA has assisted the territories
in developing additional measures of economic performance:

   •       GDP by industry statistics show how much each industry contributed
           to the overall inflation rate for the economy.
   •       Compensation of employees by industry measures track wage and
           salary trends for key industries, or sectors, within the territorial
           economies.
   •       Detailed consumer spending measures show how household spending
           patterns have changed over time and how the composition of products,
           or commodities, purchased by households has changed.

GDP statistics are not specifically produced for tracking Federal assistance. They
make it possible, though, to measure the overall economic health of the territories
and help territorial leaders focus on policies that would improve their economies.
In addition, the statistics will help OIA track the impact of its assistance on
economic conditions.

OIG will review these programs as necessary to ensure improvement, but the need
remains to address the historical issues relating to preventing and detecting fraud,
waste, and mismanagement involving Government-funded programs.

Cobell and Indian Land Consolidation
In December 2009, Secretary Salazar announced the settlement of the long-
running and highly contentious Cobell class-action lawsuit regarding the U.S.
Government’s trust management and account of over 300,000 individual
American Indian trust accounts. Congress approved the $3.4 billion Cobell
settlement on November 30, 2010 (Claims Resolution Act of 2010). President
Obama signed the settlement on December 8, 2010, and the U.S. District Court
approved the final settlement following a fairness hearing on June 20, 2011. The

                                                                                   16
settlement decision was subsequently appealed. On May 22, 2012, the U.S. Court
of Appeals affirmed the U.S. District Court’s decision to approve the settlement.
In August 2012, the U.S. District Court’s decision was appealed to the U.S.
Supreme Court.

To address land fractionation, which has been an ongoing challenge for DOI, the
settlement established a $1.9 billion fund for the voluntary buyback and
consolidation of fractionated land interests. Because wills were not widely used
by American Indian landowners, smaller and smaller land interests descended to
successive generations, thereby fractionating the land. Land fractionation limits
tribes’ productive use of land and creates jurisdictional issues. It also requires that
BIA and OST devote a significant portion of their budgets to administer the
fractionated land interests. The land consolidation program will provide
individual American Indians with an opportunity to obtain cash payments for the
sale of their undivided land interests and provide tribal communities with the
economic benefit resulting from better use of the land.

We have issued one evaluation and three advisories since we began monitoring
DOI’s planning efforts in FY 2010. These reviews disclosed the need for better
communication and coordination among the many DOI offices and Indian tribes
that will be involved in land-consolidation efforts. Two of the advisories focused
on appraisal tools needed to help the land-consolidation program succeed, such as
a mass appraisal system and a centralized tracking system at the Office of
Appraisal Services within OST. The most recent advisory highlighted the need for
DOI and tribes to work together to solve the long-standing problem of Indian land
fractionation.

As part of its planning for Indian land consolidation, DOI is using input from
Indian Country to develop a comprehensive plan to reduce fractionation. The
many DOI offices that will be involved in land consolidation efforts have also
done significant work to prepare for the planning and implementation of the
eventual Indian land-consolidation project. During this time, we continue to
monitor DOI’s planning efforts and evaluate the accountability of funding that
will be provided to DOI in the settlement.

Operational Efficiencies
DOI, like other Federal agencies, faces considerable economic challenges in
anticipation of flat budgets or budget cuts. Ceilings on total discretionary
spending and calls for deficit reduction increase the pressure on DOI to manage
fiscal resources effectively. In addition, the Accountable Government Initiative
has called for significant change in the way Government does business. We
deploy our resources to promote accountability in the management of DOI’s fiscal
resources, and to examine DOI’s contracting and grant practices to avoid waste
and improper payments.

In FY 2012, our audit, evaluation, and investigation work supported the—

                                                                                    17
   •   identification of more than $1 million in questioned or unsupported costs
       claimed by DOI contractors. The largest portions of these costs involve
       work that was performed and billed without prior authorization, charges
       related to subcontract costs that were not properly negotiated, and work
       that was not within the scope of the contract to which the costs are
       applied. To date, DOI has taken action on these findings and avoided
       payment of $310,000;
   •   identification of deficiencies in contract administration that, if corrected,
       could prevent or reduce the amount of questioned costs in future audits;
   •   identification of revenue enhancement opportunities on the order of $100
       million annually through improved management of the rights-of-way that
       cross public lands; and
   •   conviction of a former DOI employee for embezzlement of $731,000 and
       subsequent evaluation of check-writing controls to promote accountability
       throughout DOI.

Program Planning
We conducted an evaluation of five DOI programs to examine program planning
processes and determine which program planning models lead to success. We
asked bureaus to identify successful programs and expand on their planning
processes. By identifying successful planning processes, we provided useful
information to DOI and its bureaus in developing new programs or revising
existing programs. We evaluated programs from the Office of Surface Mining,
U.S. Fish and Wildlife Service (FWS), U.S. Geological Survey, BIA, and USBR.

While effective planning does not guarantee a program’s success, an effective
planning process helps justify program budgets, determines program priorities,
defines program goals, and provides a means for evaluating program
accomplishments.

Coastal Impact Assistance Program
On October 1, 2011, FWS assumed responsibility from BOEMRE for the $1
billion Coastal Impact Assistance Program (CIAP). CIAP distributes funds to the
OCS oil and gas producing States and coastal political subdivisions for the
conservation, protection, and preservation of coastal areas, including wetlands.

BOEMRE implemented and oversaw this program until FY 2012, when FWS
assumed responsibility. To ensure minimal impact on recipients, DOI had to
provide a seamless transfer of approximately $730 million in undistributed funds
and approximately 350 open grants from BOEMRE to FWS. FWS’s migration to
DOI’s Financial and Business Management System and the U.S. Department of
the Treasury’s Automatic Standard Application for Payments also further
complicated the transfer. FWS, however, was successful in the transfer of grant
files and grant balances. New challenges FWS faces include—


                                                                                  18
   •       monitoring grantees new to receiving grant monies directly from FWS;
           and
   •       properly analyzing grantee risk while minimizing delay in issuing
           grants.

Administrative Functions and Cost Savings
According to the FY 2013 budget submission, DOI will achieve additional
administrative efficiencies that result in cumulative savings of $207 million from
2010 to 2013. These reductions are being implemented throughout DOI and result
from changes in how DOI manages travel, employee relocation, acquisition of
supplies and printing services, and the use of advisory services. The proposed
savings in administrative functions will not have an impact on programmatic
performance, and to the greatest extent possible, savings will be redirected into
priority programmatic areas.

DOI’s 2013 budget reflects a freeze on Federal salaries for 2012 and a 0.5 percent
pay increase in 2013. The budget fully funds fixed costs for the civilian pay
increase, anticipated changes in Federal contributions to health benefits, rent
increases, changes in workers’ and unemployment compensation costs, programs
financed through the Working Capital Fund, and specific contract requirements
for section 638 agreements—which allow Indian tribes and tribal organizations to
acquire increased control over the management of Federal programs that impact
their members, resources, and governments.

To meet the objectives of the Office of Management and Budget’s “Campaign to
Cut Waste,” DOI stated that it has taken steps to cut its real property portfolio;
buy smarter through strategic sourcing; and realize information technology (IT)
savings by closely managing commodity IT purchases, performing TechStats—
evidence-based accountability review of an IT investment—to identify
underperforming IT projects, and consolidating data centers. DOI also stated that
it is taking critical steps to eliminate unnecessary spending by cutting
administrative spending and reducing travel and conference-related costs. In
addition, DOI said that efforts are currently underway to eliminate duplicative
programs and ensure that functions are optimally structured.

DOI can realize cost savings by using alternatives to travel for long-distance
meetings such as teleconferencing; video teleconferencing (VTC); and shared
Web sites or Web conferencing, which enable real-time communication and
document sharing. Our December 2011 report found that by increasing the use of
VTC, DOI could experience significant savings in travel costs. Using DOI’s FY
2009 travel expenditures, we calculated that with only a 10 percent increase in
VTC use, DOI could potentially save $4.2 million on travel. An increase of 20
percent could save as much as $8.5 million.

In addition to savings in travel costs, increased use of VTC could advance DOI’s
goal of reducing greenhouse gas emissions. Reducing travel between 10 and 20

                                                                                19
percent will contribute to DOI’s goals under its “Strategic Sustainability
Performance Plan” by eliminating an estimated 298 to 596 tons of carbon dioxide
emissions, equivalent to the emissions from 31,000 to 62,000 gallons of gasoline.

Many opportunities also exist for improvement in operational efficiencies. We
recognize DOI’s active approach to address the Accountable Government
Initiative, yet challenges remain. We will continue to focus staff resources where
they will have the most impact on preventing and detecting fraud, waste, and
mismanagement, as well as identifying additional opportunities to enhance
program revenues where appropriate.

Conclusion
Working with DOI officials, we identified energy management, climate change,
water programs, responsibility to Indians and Insular Areas, Cobell and Indian
land consolidation, and operational efficiencies as the most significant
management and performance challenges facing DOI. We are committed to focus
our resources on the issues related to these challenges to ensure greater
accountability, promote efficiency and economy in operations, and provide
effective oversight of the activities that comprise DOI’s mission. This report
should assist DOI to identify and develop strategies and implement policies and
procedures necessary to sustain improvements in an environment of increasing
complexity and limited resources.




                                                                                 20
                                    


            Report Fraud, Waste,                                      
            and Mismanagement
                                       
                  Fraud, waste, and mismanagement in
                  government concern    everyone: Office
                of Inspector General staff, Departmental
                 employees, and the general public. We
                    actively solicit allegations of any
                           and wasteful practices, fraud,
                inefficient
                     and mismanagement related to
               
                 Departmental or Insular Area programs
                                                         
                     and operations.  You can report
                    allegations to us  in several ways.
                                        
                                    
                                    
     By Mail:           U.S. Department of the Interior  
                        Office of Inspector General  
                        Mail Stop 4428 MIB  
                        1849 C Street, NW  
                        Washington, D.C. 20240  
      
     By Phone:          24-Hour Toll Free                               
                                                            800-424-5081
                        Washington Metro Area               202-208-5300
                                                                        
      
     By Fax:            703-487-5402
      
     By Internet:       www.doioig.gov
  
                                                                            
